  ALLEGATION OF SUNSHINE ACT AND
EX PARTE COMMUNICATION VIOLATIONS
      BY NRC COMMISSIONERS

    98-02S        May 27, 1998
                                               TABLE OF CONTENTS


                                                                                                                          Page


BASIS AND SCOPE......................................................................................................3


BACKGROUND ............................................................................................................4


DETAILS .......................................................................................................................6


FINDINGS .................................................................................................................18
                                  BASIS AND SCOPE

The Office of the Inspector General (OIG), U.S. Nuclear Regulatory Commission (NRC),
initiated this Event Inquiry (EI) into information contained in an article in the March 12,
1998, issue of the Wall Street Journal (WSJ) newspaper. In this article, the WSJ reported
that in November 1997, Paul BLANCH, a consultant for Northeast Nuclear Energy
Company (the licensee for the Millstone Nuclear Power Stations), met privately with NRC
Chairman Shirley JACKSON and NRC Commissioners Nils DIAZ and Edward
McGAFFIGAN at NRC Headquarters in Rockville, Maryland. The article also indicated
that BLANCH had been telling local newspapers that the Millstone Nuclear Power Plants
should be reopened. Additionally, Commissioner DIAZ was quoted in the WSJ
newspaper article as saying that BLANCH made "a pretty good case" for the restart of the
Millstone plants during their meeting. The WSJ article did not specify whether the NRC
Commissioners met individually with BLANCH or as a group.

Following publication of the WSJ article, OIG received a number of complaints from
private individuals and law firms in the vicinity of the Millstone plants alleging that
BLANCH's meetings with the NRC Commissioners had violated either the letter or the
spirit of the Government in the Sunshine Act ("Sunshine Act"), (Title 5, U.S. Code, Section
552b as prescribed in Title 10, Code of Federal Regulations (CFR), Part 9. 100) as well as
the rules regarding ex parte communications contained in Title 10, CFR, Part 2.780.

Based on concerns raised by the public, OIG addressed in this El the circumstances
surrounding the meetings between the NRC Commissioners and BLANCH. In addition to
the Sunshine Act and ex parte communication questions, OIG addressed the public's
access to the NRC Commission, as well as the various sources of information available to
the Commissioners to enable them to receive a balanced view regarding the status of the
Millstone plants.




                                            3
                                     BACKGROUND

In June 1996, the NRC designated the three units at Millstone as Category 3 plants on the
NRC's watch list. Plants in this category have significant weaknesses that warrant
maintaining them in a shutdown condition until the licensee can demonstrate to the NRC
that it has both established and implemented adequate programs to ensure substantial
improvement. Plants in this category require a vote by the NRC Commission prior to
resuming operations.

On August 14, 1996, the NRC issued a Confirmatory Order directing Northeast Nuclear
Energy Company (NNECO) to contract with a third-party to implement an Independent
Corrective Action Verification Program (ICAVP) to verify the adequacy of its efforts to
establish adequate design bases and design controls.

On October 24, 1996, the NRC issued an Order directing that, before restarting any
Millstone unit, the licensee develop and submit to the NRC a comprehensive plan for
reviewing and dispositioning safety issues raised by its employees and ensuring that
employees who raise safety concerns can do so without fear of retaliation. The order also
directed the licensee to retain an independent third-party to oversee implementation of its
comprehensive plan.

On January 30, 1997, the NRC staff and the licensee briefed the Commission on their
activities at Millstone. Subsequently, on April 23, August 6, December 12, 1997, and
February 19 and May 1, 1998, the NRC staff, licensee and the independent third-party
organizations involved in Millstone oversight activities provided the Commission with
updates on these activities.

Regulations regarding Sunshine Act and ex parte communications

As set forth in 10 CFR, Subpart 9.102, the procedures for compliance with the
Government in the Sunshine Act state:

       Commissioners shall not jointly dispose of Commission business in Commission
       meeting other than in accordance with this subpart. Except as provided in 9.104
       (Closed Meetings), every portion of every meeting of the Commission shall be
       open to public observation.

A meeting is defined in 10 CFR, Subpart 9. 101 as:

Meeting means the deliberation of at least a quorum of Commissioners where such
      deliberations determine or result in the joint conduct or disposition of official
      Commission business ...




                                             4
The rules regarding ex parte communications found in 10 CFR, Subpart 2.780 state:

In any proceeding under this subpart(a) Interested persons outside the agency may not
       make or knowingly cause to be made to any Commission adjudicatory employee,
       any ex parte communication relevant to the merits of the proceeding.

(b) Commission adjudicatory employees may not request or entertain from any interested
        person outside the agency or make or knowingly cause to be made to any
        interested person outside the agency, any ex parte communication relevant to the
        merits of the proceeding ...
...
(e) (1) The prohibitions of this section apply-(1) When a notice of hearing or other
        comparable order is issued in accordance with 2.104(a), 2.105 (e)(2), 2.202 (c),
        2.204, 2.205(e), or 2.703;
...
(f) The prohibitions in this section do not apply to-(4) Communications regarding generic
        issues involving public health and safety or other statutory responsibilities of the
        agency (e.g., rulemakings, congressional hearings on legislation, budgetary
        planning) not associated with the resolution of any proceeding under this subpart
        pending before the NRC.




                                             5
                                        DETAILS

Government in Sunshine Act and ex parte rules not applicable

To address the allegations that the Sunshine Act had been violated and that improper ex
parte communications had occurred, OIG conducted initial inquiries which determined
that BLANCH met separately with each of the Commissioners mentioned in the WSJ
newspaper article (the Chairman, Commissioner McGAFFIGAN and Commissioner
DIAZ). OIG then interviewed two senior representatives from the NRC Office of the
General Counsel (OGC) with expertise in the areas of the Sunshine Act and ex parte
communications. Both attorneys advised OIG that the Sunshine Act did not apply to the
meetings between BLANCH and the Commissioners because the meetings were held
individually with each Commissioner. They explained that the Sunshine Act as
implemented by the agency in 10 CFR 9. 100 only applies to meetings when there is a
quorum of the Commissioners and deliberations of official Commission business takes
place. A Commission quorum has been held to mean three or more Commissioners.

Regarding the ex parte communications issue, both OGC attorneys stated that the rules
prohibiting such communications apply only when there is an adjudicatory proceeding (as
defined by 10 CFR) underway or if a Commission employee has knowledge that a notice
of hearing will be issued. They explained that in the case of the Millstone restart, the
matter is being handled as a licensing issue and no NRC adjudicatory proceeding is in
effect or anticipated. Therefore, the ex parte communication rules did not apply to the
meetings between BLANCH and the Commissioners.

Arrangements made for BLANCH meeting with Chairman and Commissioners

OIG interviewed Paul BLANCH who advised that he has been employed as a
contractor/consultant for Northeast Nuclear Energy Corporation (NNECO) since
February 1997. BLANCH described his current duties as being related to the NNECO
Employee Concerns Program (ECP) and helping to establish/ensure a Safety Conscious
Work Environment (SCWE) at Millstone. BLANCH stated that in his position, he meets
with employees who have safety concerns, and he attempts to resolve their concerns.

BLANCH related to OIG that he first met with NRC Chairman Shirley JACKSON in April
1996 which was prior to his current period of employment at NNECO. BLANCH explained
that the principal topic of that meeting was the NRC's handling of whistleblowers. At the
conclusion of the April 1996 meeting, Chairman JACKSON reportedly invited BLANCH to
return at a later date for further discussion. In August 1997, BLANCH sent a letter to the
Chairman requesting a personal meeting. BLANCH stated to OIG that in the letter of
request, he acknowledged that he had been a consultant for NNECO since the spring of
1997, but he stated that he was requesting the meeting with the NRC Chairman on his
own behalf. OIG learned through review of BLANCH's letter that the topics he proposed
for discussion included whistleblower issues, effectiveness of the NRC's enforcement
process, and the NRC's identification and resolution of potentially significant safety
issues.
                                            6
BLANCH continued by stating that after the November 1997 meeting with the Chairman
was scheduled, he made an inquiry to a manager in the NRC's Office of Nuclear Reactor
Regulation (NRR) as to the availability of the other Commissioners to meet with him. The
NRR manager, who had been the NRC staff s point of contact with BLANCH for an
extended period of time, contacted the offices of NRC Commissioners McGAFFIGAN,
DIAZ and DICUS to determine if they had any interest in meeting with BLANCH.
According to BLANCH, the NRR manager learned that Commissioners McGAFFIGAN
and DIAZ were agreeable to a meeting with BLANCH. Separate meetings with the two
Commissioners were set up for November 14, 1997, the same day as the meeting with
the Chairman. BLANCH stated that he was told that Commissioner DICUS was not
available for a meeting on the scheduled date.

BLANCH told OIG that he traveled to NRC Headquarters in November 1997 at his own
expense and time. BLANCH stated that he informed NU management of his intention to
meet with the NRC Commissioners in advance and there was mutual agreement between
he and NU that he was going in his private capacity rather than as a representative of NU
management. BLANCH stated that he had general discussions with NU managers
concerning the topics he proposed to raise with the Commissioners; however, BLANCH
asserted to OIG that there was no direction provided by NU managers on the topics of
discussion. BLANCH told OIG that NU management provided no material for BLANCH to
use during the commission meetings.

BLANCH acknowledged to OIG that he met separately with the NRC Chairman,
Commissioner McGAFFIGAN and Commissioner DIAZ on the afternoon of November
14,1997. Each meeting lasted approximately 30-45 minutes. BLANCH said he began
each meeting with the statement that he was there as a private citizen and not as a
representative of NU. He also informed the Commissioners that he did not intend to
discuss the situation at Millstone unless the Commissioners desired that he do so.
BLANCH told OIG that the NRC Chairman indicated that she did not want to discuss
Millstone with him; however, both Commissioners McGAFFIGAN and DIAZ indicated that
they wanted to talk about Millstone. BLANCH said that the discussion with the two
Commissioners about Millstone centered around the status of the ECP and SCVVE.
BLANCH indicated to Commissioners McGAFFIGAN and DIAZ that progress had been
made in these areas; however, he felt there was still room for improvement. BLANCH was
complimentary of the services being provided by Little Harbor Consultants (LHC).
BLANCH denied to OIG that there was any discussion of the timing of the Millstone restart
decision or of how any of the Commissioners intended to vote on the restart issue.

When questioned by OIG about the comment attributed to Commissioner DIAZ in the
WSJ article that BLANCH made a "pretty good case" for restart during the meeting,
BLANCH said that he was "surprised" by the comment because he did not believe that he
had discussed the issue of Millstone restart with Commissioner DIAZ.

OIG Review of Meeting Summary Prepared by BLANCH

                                           7
BLANCH advised OIG that he prepared a summary of his meetings with the
Commissioners after returning to work at NU and while on NU's payroll. OIG reviewed the
summary, which was intended to be an internal NU document, and found that it contained
a list of the topics discussed with each Commissioner as well as BLANCH's personal
views on the meetings. BLANCH indicated in the summary that both Commissioners
DIAZ and McGAFFIGAN were primarily interested in Millstone issues. BLANCH wrote
that the only topic generally related to Millstone which was discussed with the Chairman
had to do with the public perception of the NRC in the vicinity of the Millstone plants.

The summary prepared by BLANCH also included the following personal view on how the
Commissioners might vote on the restart of Millstone: "My overall assessment is that if the
staff were to endorse the restart of Millstone today, we would have affirmative votes from
Commissioners McGAFFIGAN and DIAZ. I think the Chairman is going to be very
sensitive to public opinion. I have verbally summarized the meetings to (names of two NU
managers), and we are all in agreement that follow up letters will be sent from me to the
three Commissioners and Mr. Thadani. I will work with Communications to send these
letters soon."

OIG learned that a copy of BLANCH's summary was provided to NU management shortly
following preparation.

Commissioner McGAFFIGAN describes meeting with BLANCH

OIG interviewed Commissioner Edward McGAFFIGAN who recalled that when the
November 1997 meeting with BLANCH was initially proposed, a member of his staff
recommended that he meet with BLANCH. The staff member provided Commissioner
McGAFFIGAN with background on BLANCH's past involvement with whistleblower and
nuclear safety issues.

Commissioner McGAFFIGAN confirmed to OIG that at the outset of the meeting,
BLANCH indicated that he was there as a private citizen and that he did not intend to
discuss Millstone issues unless the Commissioner desired that he do so. Commissioner
McGAFFIGAN told OIG he wanted to obtain BLANCH's view of the current situation at
Millstone, and he informed him as such. The Commissioner was particularly interested in
BLANCH's view of the ECP at Millstone. He recalled that BLANCH's comments were
generally favorable of the ECP; however, BLANCH felt there was still room for
improvement. Commissioner McGAFFIGAN advised OIG that BLANCH represented
merely "one data point" of many that he (Commissioner McGAFFIGAN) would consider in
assessing the situation at Millstone.

Commissioner McGAFFIGAN told OIG that he did not discuss either the scheduling of the
Millstone restart vote or how he intended to vote on the subject. Commissioner
McGAFFIGAN did not feel that BLANCH was "making a case" for a Millstone restart
during their meeting.

Commissioner McGAFFIGAN added that as of the date of the OIG interview (March
                                            8
1998), he still had not made up his mind on the matter of restart. Commissioner
McGAFFIGAN advised OIG that he had not visited the Millstone site up to this point due to
a personal matter which restricts his travel outside of the Washington, D.C. area. He told
OIG that he intended to vote to allow critics of Millstone to participate in future
Commission meetings.

Commissioner McGAFFIGAN said that he does not turn down any requests for a meeting
with him unless there is a legal reason to do so. He felt that Commissioners were in
danger of becoming isolated from the real world if they turned down such requests from
the public. Commissioner McGAFFIGAN advised that he had recently sent a letter to the
editor of The DU, a New London, Connecticut newspaper, in response to an earlier
editorial which had been critical of the Commissioners for meeting with BLANCH. In that
letter to the editor, Commissioner McGAFFIGAN stated his willingness to meet with any
member of the public who desired such a meeting.

A senior member of Commissioner McGAFFIGAN's staff who was present during the
meeting with BLANCH was interviewed separately by OIG. That staff member provided
information consistent with Commissioner McGAFFIGAN's account of the meeting with
BLANCH.

Commissioner DIAZ explains meeting with BLANCH

Commissioner Nils DIAZ, when interviewed by OIG, advised that the November 1997
meeting with BLANCH was suggested by a member of his staff, and he agreed with the
meeting. Commissioner DIAZ believed that he instructed his staff to ensure that the
meeting was permissible, but he was uncertain as to what steps his staff may have taken
in that regard. He said the fact that BLANCH was meeting with other Commissioners on
the same day may have allayed his concerns about the legality of the meeting.
Commissioner DIAZ told OIG that he believed the purpose of the meeting was for
BLANCH to introduce himself to the Commissioners. He likened it to a "presentation of
credentials" meeting. The Commissioner said that he was aware of BLANCH's past
history as a whistleblower and that he had recently returned to NU as a consultant
working in the area of ensuring a SCWE at the site. Commissioner DIAZ told OIG that he
did not believe that BLANCH was working on technical issues at Millstone.

According to Commissioner DIAZ, at the start of the meeting, BLANCH said that he was
there in his personal capacity and not as a representative of NU. Commissioner DIAZ
estimated that two-thirds of the meeting was consumed by BLANCH telling about his past
history and a discussion of an event in the 1980s in which fuel from a nuclear power plant
had been exposed.


Commissioner DIAZ told OIG that he disagreed with BLANCH regarding the potential
severe consequences of that event.

Commissioner DIAZ told OIG that following a brief pause in their conversation, BLANCH
                                            9
asked the Commissioner if he wanted to talk about Millstone. The Commissioner looked
around the table at the other attendees (his Executive Assistant and an NRR manager),
and when no one objected, the discussion of Millstone proceeded. Commissioner DIAZ
said that the conversation did not include specific restart issues but rather involved
BLANCH's views on the SCWE at Millstone. Commissioner DIAZ indicated that BLANCH
was complimentary of improvements in that area but indicated that there was still room for
additional progress.

Commissioner DIAZ denied to OIG that he made the comment which appeared in the
WSJ article that BLANCH had made a "pretty good case" for restart at Millstone.
Commissioner DIAZ explained that he did not view the points made by BLANCH during
the meeting as making a case for restart; therefore, he asserted to OIG that he would not
have made such a statement. When asked if he had any explanation for the comment as
reported in the WSJ article, Commissioner DIAZ explained that in response to a series of
questions from the reporter regarding his views on the issue, he told the WSJ reporter that
the "NRC staff was making a good case for restart" during Commission briefings.

A senior member of Commissioner DIAZ' staff present during the meeting with BLANCH
was interviewed separately by OIG. The staff member told OIG that while making
arrangements for the meeting, she was informed that BLANCH was coming as a private
citizen and not as a representative of NU. The staff member characterized the meeting as
a "pumps and valves" discussion of technical issues with which she was not conversant.
She told OIG that she did not take notes during the meeting, but she believed that the
NRR representative who was present during the meeting took notes. The
Commissioner's staff member could not specifically recall if the issue of Millstone restart
was discussed during the meeting, but stated that she doubted that it was.

Contact with WSJ reporter

The correspondent who wrote the article in the March 12, 1998, issue of the WSJ was
contacted by OIG. The writer reconfirmed to OIG the accuracy of his article and declined
a personal interview. When asked about the comment in the article attributed to
Commissioner DIAZ regarding BLANCH making a "pretty good case" for the restart of
Millstone, the correspondent advised OIG that the inclusion of quotations marks around
the comment signified that the statement was verbatim by Commissioner DIAZ. The
reporter added that the interview of Commissioner DIAZ for the WSJ article was done by
telephone.




Interview of NRR Manager

OIG interviewed the NRR manager who has been the NRC staff s point of contact with
BLANCH and was present during the Chairman/BLANCH and Commissioner
DIAZ/BLANCH meetings. The NRR manager stated that he was aware that BLANCH had
                                            10
sent a letter in the late.summer of 1997 requesting a meeting with the NRC Chairman.
The manager advised that after the meeting with the Chairman was scheduled for
November 1997, BLANCH asked the manager if any of the other NRC Commissioners
would be available for a meeting on the same day. The NRR manager then contacted the
staffs from the other Commissioners and learned that Commissioners McGAFFIGAN and
DIAZ were willing to meet with BLANCH. The staff of Commissioner DICUS indicated that
she would not be available to meet with BLANCH.

The NRR manager said that during telephone conversations with BLANCH in advance of
the November meetings, both men agreed that it would be inappropriate to discuss NU
issues during the meetings. During the same telephone discussions, the NRR manager
learned that the principal topic for discussion during the meetings was whistleblowers.
The NRR manager advised OIG that he had also been present during the prior April 1996
meeting between the Chairman and BLANCH. The NRR manager sat in on BLANCH's
meetings with the Chairman and Commissioner DIAZ. He was not asked to sit in on the
meeting with Commissioner McGAFFIGAN.

The NRR manager said that at the start of the meeting with Commissioner DIAZ,
BLANCH informed the Commissioner that he had recently returned to work as a
consultant at NU and that he did not intend to discuss NU or Millstone unless the
Commissioner desired to do so. At that point, according to the NRR manager,
Commissioner DIAZ spoke up and said that he was interested in hearing how BLANCH
viewed the current situation at Millstone. The NRR manager estimated that Millstone was
discussed for approximately 10 minutes out of the 3 0 minute meeting. However, the NRR
manager told OIG that he did not view BLANCH's comments as "making a case" for
restart of Millstone. The NRR manager opined that because BLANCH was working
principally on ECP matters at Millstone, BLANCH did not have specific information
regarding the technical issues in which Commissioner DIAZ appeared to be interested.

Following the meeting with Commissioner DIAZ, the NRR manager escorted BLANCH to
the meeting with the Chairman. The NRR manager said that there was no discussion of
NU or Millstone issues during that meeting. He said that "the lines were bold" in that both
BLANCH and the Chairman made it clear at the outset that current Millstone issues would
not be discussed.

The NRR manager confirmed to OIG that the Commission vote on the restart of Millstone
was not discussed during either meeting.



The NRC Chairman describes meeting with BLANCH

NRC Chairman Shirley JACKSON advised OIG that her meeting with BLANCH in
November 1997 was in response to a request from him. She stated she had met
previously with BLANCH in April 1996 to discuss the NRC's handling of whistleblowers. At
the start of the November 1997 meeting, the Chairman made it clear to BLANCH that she
                                            11
did not want to discuss Millstone issues with him. She was sensitive to the fact that there
were two NRC Orders in effect related to Millstone. The Chairman told OIG that during her
November 1997 meeting with BLANCH there were general discussions of NRC's
investigation of harassment and intimidation (H&I) cases, her views on "safety vs.
compliance," design bases issues, the Senior Management Meeting (SMM) process, 10
CFR 50.59 process and risk-infortned regulation.

During the OIG interview, the Chairman advised that she had visited the Millstone site on
February 2, 1998, prior to the WSJ article. In addition to a news conference and the
conduct of an evening public meeting, she met separately with representatives from a
number of local groups including: Friends of a Safe Millstone (FOSM), the Connecticut
Nuclear Energy Advisory Council (NEAC), and the Citizens Regulatory Commission
(CRC).

Two members of the Chairman's staff who were present during the meeting with BLANCH
were interviewed by OIG regarding the meeting. Both staff members confirmed that the
Chairman did not discuss specific Millstone issues or the restart vote with BLANCH. The
staff members stated that the meeting was viewed as a follow-up to an earlier April 1996
meeting with BLANCH in which the NRC's handling of whistleblowers was discussed. As
recalled by the staff members, the NRC handling of whistleblowers was the principal topic
of discussion during the November 1997 meeting.

Commissioner DICUS unavailable to meet with BLANCH

OIG interviewed NRC Commissioner Greta DICUS who related that she was out of town
on November 14, 1997, the date of BLANCH's meetings with the other NRC
Commissioners. Commissioner DICUS told OIG that she doubted that she would have
met with BLANCH even if she was at NRC Headquarters on that date. She explained that
while she saw no legal prohibition to such a meeting, she did not see it as particularly
beneficial to meet with just one member of the public who wanted to provide his individual
views on a particular situation.

NRC Commission Visits to Millstone

OIG reviewed the schedule of the NRC Commissioners' trips to the Millstone area. OIG
learned that the NRC Chairman has visited Millstone on two occasions (August 1996 and
February 1998). During both of those visits, she held public news conferences and
responded to questions from the media. During the February 2, 1998, visit, the Chairman
met separately for a brief period with members of the following groups: CRC, Citizens
Advisory Group (CAG), FOSM, and the Nuclear Energy Advisory Council (NEAC).
Additionally, the Chairman met with state and local elected representatives and the
Connecticut Department of Environmental Protection during the February 1998 visit. The
Chairman also conducted public meetings in Waterford, CT during both of her visits.

OIG learned that Commissioner DIAZ visited the Millstone plants for the first time on April
6, 1998. Following a tour of the plants, Commissioner DIA7, conducted a press briefing
                                            12
and met with members of local public interest groups. The groups meeting with
Commissioner DIAZincluded: the Connecticut NEAC, Millstone Advisory Council (MAC),
CRC as well as local elected officials. The Region 1, NRC Office of Public Affairs (OPA)
advised OIG that a verbal invitation was also extended to the following groups: Citizens
Awareness Network (CAN), Connecticut CAG and FOSM; however, they did not attend
the meeting with Commissioner DIAZ.

OIG determined that Commissioners McGAFFIGAN and DICUS have not visited the
Millstone site. However, Commissioner DICUS indicated to OIG that she intended to visit
the site in the future.

Commission meetings with NU officials

During the conduct of this El, OIG learned that members of the NU Board of Trustees,
senior NU management officials, and the Chair of the Nuclear Committee Advisory Team
(NCAT) to the Nuclear Committee of the Board at NU met individually with NRC
Commissioners on numerous occasions during 1997 and 1998 at NRC Headquarters in
Rockville, MD.

According to NU records, OIG determined that the following meetings between NU
officials and the NRC Commissioners took place:

                            Number
Commissioner                of Visits          Dates

Chairman JACKSON               6               March 10, June 5, July 18,
                                               August 22, and September 18, 1997;
                                               January 16, 1998

Commissioner McGAFFIGAN 5                      March 10, June 5, August 13 and
                                               September 18, 1997; January 16,
                                               1998

Commissioner DICUS             5               June 5, July 16, August 22, and
                                               September 18, 1997; January 16,
                                               1998


Commissioner DIAZ              4               March 10, June 11, and August 13,
                                               1997; January 16, 1998

Commissioner ROGERS            3               March 10, June 5, and July 16, 1997

OIG determined that the above meetings were separate from the public Commission
Meetings regarding Millstone that were held at NRC Headquarters.

                                          13
All of the NRC Commissioners acknowledged to OIG their meeting with NU officials at
various times other than the public Commission briefings. They noted that they also meet
with senior officials from other licensees at NRC Headquarters. While there was no public
record made of the discussions, the Commissioners advised that such meetings offer an
opportunity for them to ask questions of the licensees. Only Commissioner DIAZ told OIG
that he thought the meetings with NU could be characterized as "lobbying" attempts.
However, Commissioner DIAZ added that he actively engaged NU officials in discussions
during such meetings, and he did not just quietly accept their views on issues.
Commissioner DIAZ indicated that notes were not maintained of the meetings with NU
officials. Commissioner DICUS told OIG that either she or her staff member normally took
notes during such meetings. Commissioner McGAFFIGAN said that he did not take notes
during the meetings with NU officials, and he was uncertain if a member of his staff
documented the meetings in any form. NRC Chairman JACKSON said that she was not
aware of any record made of the issues discussed during her meetings with licensee
officials unless one of her staff may have taken notes. A member of the Chairman's staff
advised that meeting summaries had been discontinued for "drop-in" meetings due to
concerns over compliance with the Freedom of Information Act (FOIA).

Commission views on balance of information regarding Millstone

All four NRC Commissioners told OIG that they were satisfied with the balance of
information they received regarding the situation at the Millstone plants. They stated that
they placed significant weight on the information being provided to them by the NRC staff
in briefing memoranda and during public Commission meetings and staff briefings. All of
the Commissioners relied on the NRC Office of Public Affairs (OPA) to screen the local
and national news media for stories concerning Millstone. OIG was told this OPA effort
represented a significant part of the input used by the Commissioners to assess the
concerns of the public living around the plants.

The Commissioners told OIG that they also relied on the contractors selected to perform
the Independent Corrective Action Verification Program (ICAVP) at Millstone as well as
the third party oversight of the ECP as sources of information during the public
Commission briefings. All of the Commissioners felt that the ICAVP and ECP contractors
were sufficiently independent of the licensee to provide information of value to the
Commission.


Chairman JACKSON and Commissioner McGAFFIGAN advised OIG that they paid
particularly close attention to correspondence from the Union of Concerned Scientists
(UCS) regarding technical issues associated with safety at nuclear power plants.
Similarly, they looked closely at the NRC staff s responses to the UCS.

Contact with NRC Special Projects Office (SPO)

OIG interviewed a senior NRC manager in the NRR Special Projects Office (SPO) which
was established by the NRC in November 1996 to provide specific management focus on
                                            14
NRC activities associated with the Millstone units. OIG was told that the NRC staff has
conducted a number of different types of meetings in the vicinity of Millstone which have
involved either public observation and/or public participation. In the opinion of the SPO
manager, the level of public involvement in the process at Millstone was "unprecedented"
in comparison with other sites regulated by the NRC. Between December 1996 and
March 1998, there have been 12 Restart Assessment Plan (RAP) meetings between the
NRC staff and licensee which have been open to public observation. The RAP meetings
were usually held in the Training Center at Millstone during the workday and lasted about
four hours. The SPO manager advised OIG that the meetings were usually videotaped by
the licensee as well as the CRC. The SPO manager acknowledged that while the public
observed the RAP meetings, they did not actively participate in them.

OIG learned that during the period December 1996 to March 1998, the NRC staff has held
12 public meetings in the vicinity of Millstone. Most have taken place in the Waterford, CT
town hall starting at 7:00 p.m. and lasting approximately four hours. The public has been
permitted to ask questions of the NRC staff at these meetings. The public meetings were
normally transcribed and the transcript was subsequently made available for review by
the public.

Another category of meeting involving the NRC staff which has been open to public
observation involve the licensee and Little Harbor Consultants (LHQ, a contractor hired
by the licensee for work in the area of Safety Conscious Work Environment. There have
been eight meetings between May 1997 and March 1998, involving discussions among
the licensee, LHC and the NRC staff which have been open for public observation.
Additionally, there has been a series of NRC inspection exit meetings at Millstone which
have been open to the public.

The SPO manager advised OIG that as of February 1998, there had been five
Commission meetings in Rockville, MD dealing with Millstone which have been open for
public observation. A sixth Commission meeting scheduled for May 1, 1998, was slated to
include opportunities for the public to address the Commission. Similar public
participation is anticipated at other future Commission meetings on Millstone.

Office of Public Affairs (OPA) screens news media

OIG interviewed an NRC manager in NRC's OPA who advised that on a daily basis, OPA
provided each of the NRC Commissioners, as well as other NRC offices, with copies of
newspaper articles containing information of interest to the NRC. The office routinely
screened The Washington Post, Washington Times, The New York Times, and The Wall
Street Journal for information of interest to the NRC on a national level. The office also
monitors The Boston.Globe, Hartford Courant, and the New London Day for information
regarding the local situation around Millstone. OPA also relied on their Region I public
affairs staff to maintain close contact with representatives of the media in the areas
surrounding the plants.

Contact with Public Interest Groups
                                            15
OIG interviewed representatives from the CRC and FOSM as well as the First Selectman
from the Town of Waterford, CT. Representatives from CRC and FOSM confirmed to OIG
that they met individually with Chairman JACKSON for a brief period of less than 15
minutes each during her February 1998 visit to Millstone. Both individuals commented
favorably on the Chairman's attentiveness and apparent concern during their separate
meetings. The First Selectman indicated that he has met with Chairman JACKSON on
two occasions: once at NRC Headquarters in Rockville, MD in January 1996, and again
during her February 1998 visit to Millstone.

All three representatives interviewed by OIG acknowledged being invited by the NRC to
meet with Commissioner DIAZ during his April 1998 visit to the site after the article
appeared in the WSJ. In that instance, according to the CRC representative who
attended, Commissioner DIAZ met with a small group of representatives from the invited
groups for a period of about 90 minutes. The FOSM representative confirmed that he was
invited to attend, but he was unable to do so. While none of the representatives were
aware of any denials by any Commissioners to meet with members of the public around
Millstone, the CRC representative indicated that her organization had sent
correspondence to the NRC Chairman in the past requesting that she travel to Millstone
and address the public.

Regarding the public interaction with the NRC staff in the Millstone area, the FOSM
representative and the First Selectman commented favorably on the extent of public
involvement in the ongoing situation at Millstone. The CRC representative was critical of
both the extent and manner in which the public has been allowed to participate in the
process. During her interview with OIG, the CRC representative described the NRC staff
as arrogant and condescending in the way they interacted with the public. She also
criticized the format of the public meetings and believed that they should be expanded to
include two evenings rather than one due to the number of issues to be covered.

A nuclear safety engineer with the UCS was contacted by OIG. He advised that he has
never requested to meet personally with any NRC Commissioner. He explained that since
UCS was a public interest group, interactions with the Commission were usually in writing
to ensure that a clear and public record existed of what was being said. The engineer
advised that responses from the Commission were normally in writing as well. The UCS
representative advised that in January 1997, during a conference in Fort Lauderdale,
Florida, former Commissioner ROGERS invited him to come to NRC Headquarters to
talk; however, the UCS representative did not do so. In April 1997, the UCS
representative met with Commissioner McGAFFIGAN and a member of his staff at NRC
Headquarters. The UCS representative stated he has attended the public Commission
briefings on Millstone in Rockville; however, he has not attended the public meetings in
the vicinity of Millstone.

NRC Principles of Good Regulation

OIG learned that on January 17, 199 1, then NRC Chairman Kenneth M. CARR published
                                           16
Announcement No. 6, "Principles of Good Regulation," established by the Commission as
a guide to both agency decision-making and to individual behavior as NRC employees.
According to Chairman CARR, diligent adherence to the principles by every NRC
employee should help ensure that NRC regulatory activities are of the highest quality,
appropriate, and consistent. The five principles of good regulation set forth in the
announcement are: Independence, Openness, Efficiency, Clarity and Reliability. Two of
those principles (Independence and Openness) are described in the following terms:

"Independence - Nothing but the highest possible standards of ethical performance and
professionalism should influence regulation. However, independence does not imply
isolation. All available facts and opinions must be sought openly from licensees and other
interested members of the public. The many and possibly conflicting public interests
involved must be considered. Final decisions must be based on objective, unbiased
assessments of all information, and must be documented with reasons explicitly stated."

"Openness - Nuclear regulation is the public's business, and it must be transacted
publicly and candidly. The public must be informed about and have the opportunity to
participate in the regulatory process as required by law. Open channels of communication
must be maintained with Congress, other government agencies, licensees, and the
public, as well as with the international nuclear community."




                                           17
                                      FINDINGS

OIG found that the meetings between the NRC Commissioners and BLANCH, an
NNECO consultant, did not violate the Government in the Sunshine Act or the rules
regarding ex parte communications. BLANCH met with the Commissioners individually
rather than as a group comprising a quorum; therefore, the requirements of the Sunshine
Act did not apply. Further, since there was no NRC adjudicatory proceeding in existence
at the time of the BLANCH meetings, the rules regarding ex parte communications were
not applicable.

OIG determined that although the public had the opportunity for frequent contact with the
NRC staff during various meetings in the area of Millstone which were open to public
observation and/or participation, the public had limited opportunity for direct access to
individual Commissioners to express their concerns regarding the Millstone plants. This
was due to a lack of Commission invitations and requests by the public for such meetings.
Prior to the initiation of this El in March 1998, Chairman Jackson was the only NRC
Commissioner to travel to Millstone and include time in her schedule for public
participation.

During this inquiry, OIG learned that since March 1997, a number of meetings took place
between individual NRC Commissioners and senior officials from NU at NRC
Headquarters. Although not prohibited by law or regulation, the frequency of these
non-public meetings coupled with the lack of a public record of the issues discussed and
the virtual absence of similar meetings with members of the public are actions which
appear to run counter to the promulgated Principles of Good Regulation regarding
Independence and Openness. The principles of Independence and Openness require the
NRC to transact nuclear regulation publicly and candidly, and to openly seek and
consider the public's input during the regulatory process.




                                           18
